               U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL




   EVALUATION REPORT




        EVALUATION OF CONTROLS TO
   PREVENT VIOLENCE AT BUREAU OF INDIAN
  EDUCATION OPERATED EDUCATION FACILITIES




Report No. NM-EV-BIE-0001-2008       August 2008
                                   TABLE OF CONTENTS

RESULTS OF EVALUATION ................................................................................................ 1

         Safety and Security .......................................................................................................................1
         Plans ..............................................................................................................................................4
         Facility Preparedness ....................................................................................................................5

APPENDICES ...................................................................................................................... 7

         1. Background .............................................................................................................................7
         2. Facilities Visited .....................................................................................................................8
         3. Matrix of Safety Measures at Education Facilities .................................................................9
         4. Objective, Scope and Methodology ......................................................................................10
         5. Review of Six Major Components of Emergency Preparedness Plans at Nine
             Education Facilities.............................................................................................................11
         6. Suggestions ...........................................................................................................................12




                                            ABBREVIATIONS

          BIE                 Bureau of Indian Education
          DPA                 Division of Performance and Accountability
                           RESULTS OF EVALUATION
    During the 2005/2006 school year, 78 percent of public schools nationwide experienced one or
more violent incidents of crime, including rape, sexual battery, and physical attacks. In a 2000 report
regarding BIE operated schools, 37 percent of students reported carrying a gun to school during the
past month.1 In light of these statistics, BIE is dangerously unprepared to prevent violence and ensure
the safety of students and staff at BIE operated education facilities.

    We visited nine BIE operated education facilities (see Appendix 2) and compared safety measures
in place against 18 critical mainstream measures (see Appendix 3)2 and found that:

      ¾   Critical safety measures were absent at all BIE education facilities visited. At more than half of
          the education facilities visited, we walked around campuses unchallenged by staff and/or
          entered classroom buildings through unsecured exterior doors. While several facilities had
          security cameras, they were not monitored. Additionally, several facilities did not have central
          alarm systems or intercoms to warn students and staff of emergency situations.

      ¾   None of the education facilities visited had adequate emergency preparedness plans to deal
          with violent incidents such as bomb threats, shootings, fights, and hostage situations. Plans did
          not adequately address emergency and/or all-clear procedures, evacuation meeting locations,
          staff responsibilities, or how to validate that all students and staff were safe. We requested
          facilities run lock-down and evacuation drills during our visits. Several facilities could not run
          the drills because they had no safe means to lock-down and/or evacuate the facility. Other
          facilities would not because they believed the drills would cause too much chaos or frighten the
          students. During the drills that were run, responsible personnel could not always operate
          available alarm systems, all students and staff were not accounted for, doors were not locked,
          and safe meeting locations were not identified.

   Responsible BIE officials acknowledged the seriousness of school safety. One official stated it
was a matter of “when and where” – not “if” – a violent act would happen. Another official
acknowledged that some facilities give safety only minimal attention.

    Safety and Security

    We found no listing of required safety measures for BIE operated education facilities. Therefore,
we used several public sources to compile a list of 18 critical mainstream safety measures in areas such
as physical access and communication. Some safety measures were absent at all BIE education
facilities visited, with the average facility failing to effectively utilize over half of the safety measures
identified. For example, at the Santa Rosa Boarding School 14 of 18 critical safety measures were


1
    For complete background information and statistics see Appendix 1.
2
    For a complete description of objective, scope, and methodology see Appendix 4.


                                                             1
absent. (Seee Figure 1). The risk off a catastrophhic situation is multipliedd when num
                                                                                      merous safetyy
measures arre absent.

       100%
          %
        80%
          %
        60%
          %
        40%
          %                           7
                                      77%                                      72
                                                                                2%
                   61%                                               61%                   55%        61%
                            44%                50%
                                                 %          44%
        20%
          %
          0%
                John F.  Tohono 
                         T         Santa     Pine    Chemawa       Ojo      Te Tsu
                                                                                 u  Blackfeet    San 
               Kennedy O'odham
                         O         Rossa     Ridge                En
                                                                   ncino     Geh              Ildefonso
                                                                           Oweengge


                                    Fiigure 1: Perceentage of Safetty Measures Abbsent at Educattion Facilities Reviewed
                                                                                                                R

The John F. Kennedy Day
                    D School, exemplified
                              e           this multiplyying effect.


We entered John F. Ken  nnedy Day School,
                                    S        withoout a
visitors’ baddge, through
                        h an unlockedd exterior dooor and             STRANGEERS NOT SEEEN AS A THRREAT
walked arouund the camp  pus unchalleenged. We were
                                                 w
seen by approximately eight
                         e    staff members
                                    m         but were
not confrontted or asked about our business on campus.
                                                 c                     Intruders ccould easily en
                                                                                                nter the facilityy and 
                                                                        threaten tthe safety of sttudents and sttaff.
Staff did not view stranggers on camppus as a threeat. 

    The faciility’s alarm system was not reliable
because of wiring
            w        problems. Additiionally, one teacher
reported thaat the interco
                         om system diid not alwayys work.
As a result, emergency situations
                          s       coould not be reported
                                                 r                          UNNRELIABLE ABILITY TO
and/or respoonded to in a timely mannner increasiing the                   ANNO
                                                                              OUNCE AN EMERGENCYY
potential risk. 
                                                                       Threat Muultiplied ‐ Stafff is unaware off the 
                                                                       threat and
                                                                                d the potential for serious injjury 
     We were told the facility receiveed a bomb thhreat                                 increasees.
about 3 yearrs ago. Locaal law enforccement did notn
respond to the call for help
                         h and the facility
                                       f       did not
                                                   n have
a security guuard, so teacchers were seent back intoo the
facility to deetermine wh hether an actuual bomb waas
present. Em mergency ressponders are approximattely                      NO TRAINED
                                                                             R        FIRST RESPONDERSS.  
thirty miles away from thist facility, and the faciility has              INABBILITY TO CALLL FOR HELP.             
no cell phonne service an nd unreliablee land phonee lines.            NON‐RESPONSIVE LAW W ENFORCEMEENT.
As a result, this facility has no dependable meanns to               Threat Multiiplied ‐ Untrain
                                                                                                ned staff are on
                                                                                                               n their 
call for outsside help in an
                          a emergenccy and is unpprepared                     owwn to manage the crisis. 
to effectivelly deal with an emergenccy situation without
outside helpp.                                                                             Figurre 2: Multiplyying Effect



                                                        2
Access and Fencing
    At more than half of the education facilities visited, we walked campuses unchallenged by staff
and/or entered classroom buildings through unsecured exterior doors. For example, we entered the
Santa Rosa Boarding School through an unlocked exterior door and walked around the campus without
being questioned by staff. Finally, someone directed us to the office but did not escort us or watch to
ensure we went to the office. Additionally:

   ¾   While several facilities had security cameras, they were not monitored in real time.
   ¾   None of the facilities had metal detectors.
   ¾   Most of the facilities did not have security guards.
   ¾   Almost all of the facilities did not require visitors to sign in and/or show identification.

    Inadequate security fencing at more than half of the facilities increased security risks. For
example, Tohono O’odham High School, Santa Rosa Boarding School, and Chemawa Indian School
had either illegal immigrants crossing the campus or transients living on facility property. Responsible
facility officials told us that at times these unauthorized individuals either traded drugs for food and
water, or sold drugs, to students.




  Picture 1: Livestock Fencing with Openings             Picture 2: No Visible Fencing around Campus

Alarms and Communication
    More than half of the education facilities visited did not have central alarm systems. Among these
facilities, some had no or inoperable systems and others had systems that were not centralized. For
example, Blackfeet Dormitory’s alarm system was not connected to one of their buildings. Staff were
directed to communicate emergencies to the unconnected building via a two-way radio, however, we
were told that staff did not always carry the radios.

    Some facilities did not have operable intercom systems. One such facility, Santa Rosa Boarding
School, during evacuations, lock-downs, and other emergency situations, sent “runners” throughout
each building and across campus to broadcast the security message. In addition to exposing “runners”
to potentially dangerous conditions, emergency situations could not be reported and/or responded to in
a timely manner, increasing risks to the entire school population.



                                                     3
 Recommendation

   (1) Indian Affairs should immediately prepare and implement a plan of action to evaluate the
       safety and security of each education facility and correct identified weaknesses. At a
       minimum, corrective actions should ensure:

           a. Unauthorized individuals cannot gain access to the campus through unlocked or
              unmonitored doors.

           b. All facilities have operable, and regularly tested, central alarm and intercom systems.

           c. Trained first responders are available to respond to emergencies.

 Plans

    None of the education facilities visited had adequate emergency preparedness plans to deal with
violent incidents such as bomb threats, shootings, fights, and hostage situations (see Appendix 5).
Specifically, emergency preparedness plans did not sufficiently address:

   ¾   Staff responsibilities in different emergency situations.
   ¾   Signals for different emergencies and/or all-clear procedures.
   ¾   Conditions in which an evacuation versus a lock-down would be appropriate.
   ¾   Meeting locations for evacuations.
   ¾   Off-site emergency shelters.
   ¾   Accounting for and/or taking roll to ensure students and staff are accounted for.
   ¾   Communicating rolls to responsible facility officials.
   ¾   Communication with law enforcement, media, and/or parents.
   ¾   Evacuation and/or lock-down testing/drilling requirements.
   ¾   Handling emergencies during field trips or other off campus events.

   Several facilities provided multiple emergency plans, compounding these weaknesses. In some
cases, the same emergency situations were discussed in more than one plan. Therefore, we question
how facility officials could determine which plan to follow during the chaos of an emergency.

   In April 2006, BIE provided a guide to create an emergency preparedness plan, including a
template to be tailored to each facility’s individual needs. As a result, we were perplexed by the poor
condition of these plans. We questioned whether BIE officials used the guide and template provided.
We requested copies of the 2006/2007 plans submitted to BIE’s Division of Performance and
Accountability (DPA). However, DPA officials were unable to provide copies of these plans.

    We also received inconsistent information from BIE regarding emergency preparedness plans.
Specifically, responsible DPA officials stated that emergency preparedness plans were not required
under Title IV, Safe and Drug-Free Schools and Communities Act (Title IV). However, DPA’s “Title
IV: 21st Century Schools” report stated that emergency preparedness plans are required under Title IV.



                                                   4
 Recommendation

   (2) Indian Affairs should immediately prepare and implement a plan of action to evaluate the
       emergency preparedness plans at each education facility and correct identified weaknesses. At
       a minimum, corrective actions should ensure that each education facility has a current
       emergency preparedness plan in place.

 Facility Preparedness

    At some education facilities we observed lock-down and/or evacuation drills. Several facilities
could not adequately lock-down the campus. At one of these facilities, San Idefonso Day School,
neither interior nor exterior door handles could be locked from the inside. As a result, staff needed to
go outside to lock doors with keys, exposing staff and students to potential dangers. Another facility,
Blackfeet Dormitory, had some doors that could not be locked at all.




                             Pictures 3 and 4: Doors Cannot be Locked from Inside

We noted numerous other problems with the drills including:

   ¾   Facilities did not ensure students and staff were accounted for.
   ¾   Rooms were not checked.
   ¾   Doors were not locked.
   ¾   Safe locations were not identified.
   ¾   Responsible officials could not operate alarm systems.

    For example, at Tohono O’odham High School we requested that both an evacuation and a lock-
down drill be run. The responsible official ran the lock-down drill, but was unsure what code to use to
announce the drill. Furthermore, classroom staff did not take roll or report attendance to the office.
The official stated he would not run the evacuation drill because of serious student behavioral
problems. He believed the drill would cause too much chaos and he would be unable to control the
students. At Te Tsu Geh Oweenge Day School, the responsible official stated that drills were not
conducted because the children would be scared. Finally, of the few emergency preparedness plans in
place, most did not address the frequency of testing.




                                                      5
 Recommendation

   (3) Indian Affairs should immediately prepare and implement a plan of action to evaluate the
       preparedness of each education facility and correct identified weaknesses. At a minimum,
       corrective actions should ensure:

           a. All facilities can be safely locked down or evacuated in the event of an emergency.

           b. Staff and students are properly trained on emergency procedures.

           c. Emergency plans are routinely tested.

    Specific suggestions, provided as a proposed starting point for Indian Affairs to begin correcting
these serious security weaknesses, are included in Appendix 6.




                                                    6
                                                                                              Appendix 1



                                           BACKGROUND
    Why We Performed This Evaluation

   Considering school violence reported in the news, we wanted to ensure that the BIE was taking
necessary precautions to protect Indian children at BIE operated education facilities. Additionally, we
observed potential safety risks during our BIE Background Investigations audit (Report No. Q-IN-
BIA-0005-2007, dated April 25, 2008).

   We found no laws, Presidential orders, or directives on safety measures for BIE operated facilities.
Therefore, we used several public sources to compile a list of mainstream safety measures. We visited
nine BIE operated education facilities (see Appendix 2) and compared safety measures in place against
mainstream measures (see Appendix 3).3

    Statistics

    In December 2007, the U.S. Department of Education and the U.S. Department of Justice released
a joint report titled, “Indicators of School Crime and Safety: 2007.” While it stated that violent deaths
in school are rare – finding only 35 school-associated violent deaths in elementary and secondary
schools during the 2005/2006 school year in the United States – the overall picture painted was grim.

    During the 2005/2006 school year, 78 percent of schools experienced one or more violent incidents
of crime, including rape, sexual battery, and physical attacks. Overall, 1.5 million students, ages 12
through 18, were victims of nonfatal crimes while at school in 2005. Also in 2005, 8 percent of
students in grades 9 through 12 reported being threatened or injured with a weapon on school property,
while 6 percent of students reported carrying a weapon on school property during the same timeframe.

      In 2005, students ages 12 through 18 reported:

      ¾   14 percent – involved in a fight on school property.
      ¾   24 percent – gangs at their school.
      ¾   28 percent – bullied at school during the last 6 months.
      ¾   6 percent – afraid of being attacked or harmed at school.

   The statistics are even worse at BIE operated schools. A report titled, “2000 Youth Risk Behavior
Survey of Middle School Students Attending Bureau Funded Schools” stated:

      ¾   37 percent of students reported carrying a gun to school during the past month.
      ¾   59 percent of students reported being involved in a physical fight.



3
    For a complete description of objective, scope, and methodology see Appendix 4.


                                                             7
                                                                   Appendix 2



                           FACILITIES VISITED


 
Facility                        Location         Grades   Date Visited


John F. Kennedy Day School      White River AZ   K-8      April 8, 2008


Tohono O’odham High School      Sells AZ         9-12     April 10, 2008


Santa Rosa Boarding School      Sells AZ         K-8      April 11, 2008


Pine Ridge School               Pine Ridge SD    K-12     April 17, 2008


Chemawa Indian School           Salem OR         9-12     April 22, 2008


Ojo Encino Day School           Cuba NM          K-8      April 22, 2008


Te Tsu Geh Oweenge Day School   Santa Fe NM      K-6      April 23, 2008


Blackfeet Dormitory             Browning MT      1-12     April 24, 2008


San Ildefonso Day School        Santa Fe NM      K-6      April 24, 2008




                                           8
                                                                                                                                                                                                      Appendix 3


                     MATRIX OF SAFETY MEASURES
                      AT EDUCATION FACILITIES
                                                                                                 




                                                                                                                                        Te Tsu Geh Oweenge
                                                                  Tohono O’odham
                                                John F. Kennedy




                                                                                                                                                                         San Ildefonso
                                                                                                                                                                                           # of            % of




                                                                                                                           Ojo Encino
                                                                                   Santa Rosa

                                                                                                    Pine Ridge

                                                                                                                 Chemawa




                                                                                                                                                             Blackfeet
                                                                                                                                                                                         Facilities      Facilities
Safety Measures                                                                                                                                                                          Lacking         Lacking
                                                                                                                                                                                          Safety          Safety
                                                                                                                                                                                         Measures        Measures


Adequate security fencing4                                                                                                                                                                   5             55%
Secured exterior doors                                                                                                                                                                       5             55%
Designated visitors’ entrance                                                                                                                                                                4             44%
Visitors’ entrance that prevented
                                                                                                                                                                                             2             22%
unobserved entering
Visitors required to sign in or
                                                                                                                                                                                             8             88%
show identification
Visitors required to wear a
                                                                                                                                                                                             4             44%
visitors’ badge
Security camera(s)                                                                                                                                                                           6            66%
Metal detector                                                                                                                                                                               9            100%
Security guard                                                                                                                                                                               7            77%
Hall monitors                                                                                                                                                                                6            66%
Operable central alarm systems                                                                                                                                                               6            66%
Intercom system in classrooms                                                                                                                                                                3            33%
Exits clearly marked                                                                                                                                                                         0             0%
Evacuation maps clearly
                                                                                                                                                                                             4             44%
displayed
Graffiti free walls, playground
                                                                                                                                                                                             5             55%
equipment, etc.
Student dress code5                                                                                                                                                                          3             33%
Staff required to wear
                                                                                                                                                                                             9            100%
identification cards
Students required to wear
                                                                                                                                                                                             9            100%
identification cards
      TOTAL NUMBER OF SAFETY
             MEASURES ABSENT
                                               11                 8                14               9            8         11           13                   10          11




4
    We defined “adequate security fencing” as chain link, at least 6 feet high, and in good repair.
5
    Dress codes reduced violence and gang activity in benchmarked mainstream education facilities.
                                                                                                9
                                                                                        Appendix 4



 OBJECTIVE, SCOPE, AND METHODOLOGY
 Objective

   The objective of our evaluation was to determine the quality of safety measures at BIE
operated education facilities to prevent violence, against both students and staff, from internal
and external threats.

 Scope

    The scope of our evaluation was BIE operated education facilities. We specifically excluded
the fifteen BIE operated education facilities reviewed in the BIE Background Investigations audit
(Report No. Q-IN-BIA-0005-2007, dated April 25, 2008).

 Methodology

   To meet our objective we:

   ¾   Searched for applicable laws and regulations.

   ¾   Searched public school system requirements and compiled eighteen mainstream safety
       measures, based on Virginia, New York, and Texas state requirements, applicable to
       education facilities (see Appendix 3).

   ¾   Visited nine non-statistically selected BIE education facilities (see Appendix 2).

   ¾   Interviewed responsible BIE and education facility officials.

   ¾   Evaluated conditions at the education facilities against eighteen predetermined safety
       measures (see Appendix 3).

   ¾   Identified six components of an effective emergency preparedness plan (see Appendix 5).

   ¾   Reviewed emergency plans maintained by the education facilities visited (see Appendix
       5).

   ¾   Reviewed emergency plans maintained by BIE for the education facilities visited.

   We performed our work during March through June 2008 in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.


                                                 10
                                                                              Appendix 5



REVIEW OF SIX MAJOR COMPONENTS OF EMERGENCY
PREPAREDNESS PLANS AT NINE EDUCATION FACILITIES



                      % of Facilities
 Preparedness Plan
                     with Inadequate Comments
    Components
                     Plan Component

Bomb Threats             88 %       Plans did not adequately address bomb threats


Shootings               100 %       Plans did not adequately address shootings


Fights                  100 %       Plans did not adequately address fights


Hostage Situations      100 %       Plans did not adequately address hostage situations

                                    Plans did not adequately address off-campus
Campus Emergencies      100 %
                                    emergencies

Annual Updates           66 %       Plans had not been updated within the last year




                                      11
                                                                                               Appendix 6



                                     SUGGESTIONS
The following suggestions are included as a proposed starting point to assist Indian Affairs in
implementing the recommendations related to Safety and Security, Plans, and Facility Preparedness.
This list of suggestions is not intended to be all inclusive but is instead provided as a tool for Indian
Affairs to begin correcting the serious security weaknesses identified in our evaluation.

Safety and Security
To control access to facilities and campuses (Recommendation 1a):

        (1) Require all education facility exterior doors, with the exception of one designated and
            clearly marked visitors’ entrance, be secured from the outside. If other doors must be used
            during the day, ensure procedures are in place to immediately re-secure the door after use.
        (2) Require education facilities to establish procedures for visitors to sign in, provide proper
            identification, and receive a visitors’ badge. Once established, train staff on appropriate
            steps to take when someone is seen on campus unescorted or without a clearly displayed
            visitors’ badge.
        (3) Require all education facilities have adequate security fencing, including operable gates,
            around the immediate campus and recreation fields.

Require all facilities to have operable central alarm and intercom systems (Recommendation 1b):

        (4) Require education facilities to have and test central alarm and intercom systems. Ensure all
            buildings are connected to these systems.

As necessary, obtain, identify and coordinate with trained first responders so they are available to
respond to emergencies (Recommendation 1c):

        (5) Analyze education facility security guard needs considering facility location, weaknesses,
            threats, and proximity to emergency responders. Once analysis is completed, determine
            which facilities should have certified security guards qualified as first responders.

Plans
Require each education facility to have a current emergency plan in place (Recommendation 2):

        (6) Assist each education facility in using the emergency preparedness plan template and
            tailoring the contents to individual facility needs.




                                                    12
                                                                                              Appendix 6


Facility Preparedness
Require that facilities can be safely locked down or evacuated (Recommendation 3a):

       (7) All classroom doors should be equipped with interior locks and window coverings to
           increase occupant safety.

To develop properly trained staff and students (Recommendation 3b):

       (8) Require all personnel and students be trained on their individual roles and responsibilities.

Emergency plans should be routinely tested (Recommendation 3c):

       (9) Require each facility to establish a routine testing schedule for alarms, evacuations, and
           lock-down drills. Require each facility to analyze these test results to determine if revisions
           are necessary.




                                                   13
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240

By Phone:              24-Hour Toll Free         800-424-5081
                       Washington Metro Area     703-487-5435

By Fax:                703-487-5402

By Internet:           www.doioig.gov



                                                          Revised 06/08
